           U.S. Department of
                                                    Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on Revenue Diversions                         Date:    March 31, 2004
           at San Francisco International Airport
           SC-2004-038

  From:    Alexis M. Stefani                                         Reply to
                                                                     Attn. of:   JA-60
           Principal Assistant Inspector General
            for Auditing and Evaluation

    To:    Associate Administrator for Airports

           This report summarizes the results of our review of revenue diversions at
           San Francisco International Airport.      Airport revenue diversions result from
           unsupported, ineligible, and duplicate payments to airport sponsors. The objective of
           this review was to determine whether San Francisco International Airport (Airport)
           revenues were diverted to the City and County of San Francisco (City), the Airport’s
           sponsor. We conducted this review with the Federal Aviation Administration’s (FAA)
           San Francisco Airports District Office.

           During its annual single audit of the Airport for the City’s fiscal year (FY) that ended
           June 30, 2001, the accounting firm of KPMG LLP (KPMG) identified several City
           charges to the Airport that appeared to be revenue diversions. This disclosure was the
           catalyst for the request by the airlines that service the Airport (Airlines) that the Office
           of Inspector General determine whether these charges were, in fact, revenue diversions
           and whether the City complied with the provisions of the 1981 Lease and
           Use/Settlement Agreement and FAA’s revenue use policies. The exhibit to this report
           details the scope and methodology we used in conducting the review.

           BACKGROUND
           The Airport and Airway Improvement Act of 1982, as amended and codified in
           Title 49 United States Code Chapter 471, requires all airport sponsors receiving
           Federal assistance to use airport revenue for the capital and operating costs of the
           airport, the local airport system, or other facilities that are owned or operated by the
           airport and are substantially and directly related to the actual transportation of
           passengers and property. Any other use of airport revenue is considered a revenue
           diversion. However, there is a “grandfather” provision that permits use of airport
                                                                                                                              2

revenue for non-airport purposes if assurances, agreements, or governing laws that
existed before September 3, 1982, allowed such use. Non-airport use of revenue is
limited to the terms and duration specified in the grandfathered agreements.

One such grandfathered agreement exists between the City and the Airlines. On
July 1, 1981, a Lease and Use/Settlement Agreement (Agreement) was made between
the City and the Airlines, wherein the City would receive an annual service payment as
compensation for indirect services, management, and facilities provided to the Airport.
The annual service payment is the greater of $5 million or 15 percent of Airport
concession revenues.

According to the Agreement, this annual service payment constitutes full satisfaction
of “any and all indirect services provided by the City to the Airport….” In other
words, the City agreed to this annual service payment in lieu of charging the Airport
for the cost of any indirect services. Also, under the Agreement, the Airport is
obligated to pay the City for direct services only as long as the direct services are
actual, verifiable, and reasonable.

Indirect services are those services that provide a common benefit to more than one
activity (e.g., City department) and generate costs that cannot be readily assigned to
any one activity.1 Called indirect costs, any such costs generally are assigned to each
activity using an allocation rate. Some common examples of the City’s indirect costs
are executive salaries (e.g., the mayor), auditing, accounting, payroll, human
resources, and purchasing.

An allocation rate is used when the effort to identify and assign actual cost to an
activity is too burdensome or is virtually impossible; it is simply a device for
determining fairly and expeditiously the proportion of indirect expenses that each
activity will bear. As an example, a city’s fire department allocates indirect costs to
the airport based on the percentage of city firefighters assigned to the airport (number
of firefighters assigned to the airport divided by the total number of firefighters
city-wide) multiplied by the total amount of training and administrative costs.

Also, FAA’s “Policy and Procedures Concerning the Use of Airport Revenue” (Final
Policy), dated February 16, 1999, requires that the sponsor departments must provide
evidence of actual service provided to obtain payment from the airport and prohibits
the use of airport revenue for direct or indirect payments not calculated consistently
for the airport and other comparable units of government.




1
    The definition of indirect services used in this report is supported by a variety of Federal, state, and local guidelines on
    accounting concepts and standards.
                                                                                      3

RESULTS
We concluded that the City did not comply with either the Agreement or FAA’s
revenue use policies. As a result, the City diverted about $12.5 million of revenue
from the Airport during FYs 1998 through 2002. Also during this period, the City
received, under the Agreement, annual service payments as compensation for the
City’s indirect services, management, and facilities provided to the Airport. As seen in
Table 1, the Airport paid a total of nearly $107.5 million (15 percent of Airport
concession revenues) to the City’s General Fund for the 5-year period.

              Table 1. Annual Service Payments to the City
                   for Fiscal Years 1998 Through 2002
                      Fiscal Year             Annual Service Payment
                         1998                     $21,184,221
                         1999                      21,009,065
                         2000                      22,398,546
                         2001                      25,064,370
                         2002                      17,784,263
                      Total                      $107,440,465


In breach of the Agreement and/or in non-compliance with FAA’s revenue use
policies, all eight City departments we reviewed included either indirect costs,
unsupported costs, or other prohibited uses of revenue in their charges to the Airport,
resulting in diversions of revenue that should have been used for capital and operating
costs of the Airport. Therefore, the City needs to reimburse the Airport for the
$12.5 million charged by these City departments.

For example, the Airport paid the:

• City Attorney’s office $1,149,179 for overhead costs that included secretarial and
  administrative costs.

• Department of Public Works $197,074 for overhead costs based on its direct labor
  charges to the Airport.

• Civil Service Commission $335,725 for the costs of a labor negotiator, but the
  Commission did not assign a labor negotiator exclusively to the Airport.

• Police Department $62,456 in unsupported costs for workers’ compensation.

Pursuant to the Agreement, the City should not charge the Airport for the cost of
indirect services, since they are paid for by the annual service payment, or for any
unsupported costs, since they are prohibited under the Agreement. Also, under FAA’s
                                                                                         4

Final Policy, the City’s departments must provide evidence of actual service provided
to obtain payment from the Airport.

The City contends that charges by individual City departments, whether direct or
indirect, do not violate the Agreement. This view is based on a FY 2000 report
prepared by the City’s Budget Analyst stating that the City could not charge the
Airport for any of its overall indirect costs, but that individual City departments could
charge administrative and indirect costs associated with direct services provided to the
Airport. In our opinion, some of the improperly charged indirect costs from the City
departments we identified may have occurred due to this practice. For example, we
found that the City’s Department of Public Works has its own indirect cost allocation
plan to allocate costs to City departments using its services, including the Airport.

However, we found nothing in the Agreement to support this rationale that individual
City departments can allocate indirect costs to the Airport. To the contrary, we found
documentation supporting our conclusion that indirect costs are covered by the
Agreement. For example, in 1992 during a previous audit, we obtained memoranda of
understanding between the various City departments and the Airport that stated, “In
recognition of the requirements of the Airport/Airline Lease & Use Agreement …
[City Departments] will not charge the Airport for any indirect services or for
overhead.”

In view of the budget constraints now facing FAA and the financial strains on the
Nation’s airlines and airports, the results of this report underscore the need for vigilant
oversight of Airport revenue use. FAA should act expeditiously to ensure the City
reimburses the Airport for those revenue diversions we have identified in this report,
further identify revenue diversions from prior fiscal years that we did not review, and
take steps to prevent the City practices that led to the revenue diversions.

Synopsis of Revenue Diversions by City Departments
We selected and reviewed charges from the City Attorney, Civil Service Commission,
Department of Public Works, Fire Department, Human Resources, Mayor’s Office,
Office of Citizen Complaints, and Police Department. We selected these departments
based on findings in KPMG’s single audit report, the Airlines’ complaint letter to the
Office of Inspector General, and our review of the City’s cost allocation plan.

Our analysis of these charges found that the eight City departments had charged the
Airport for:

• Indirect costs already paid for by the Airport’s annual service payment to the
  City’s General Fund. The Airport’s annual service payment—an average of nearly
  $21.5 million yearly since 1998—covers any and all indirect services provided by
  the City to the Airport.
                                                                                      5

• Unsupported costs that could not be verified as actual costs to the Airport because
  of the lack of adequate documentation. Under the Agreement, the Airport is only
  obligated to pay the City for direct services that are actual, verifiable, and
  reasonable.

• Prohibited costs under FAA’s revenue use policies. The Airport was charged for
  direct services (salaries and benefits) based on an allocation that was not consistent
  with comparable units of government. FAA’s Final Policy requires that the
  sponsor departments must provide evidence of actual service provided before being
  paid by the airport and prohibits the use of airport revenue to pay direct or indirect
  charges that were not calculated consistently for the airport and other comparable
  units of government.

Table 2 lists revenue diversions from the various City departments that we identified
for one or more of the FYs from 1998 through 2002 and are in addition to the nearly
$107.5 million in annual service payments the Airport paid to the City’s General Fund
during the same period.

            Table 2. Revenue Diversions by City Department

                   Department                                     Amount
City Attorney (FY 2001)                                          $2,062,324
Civil Service Commission (FYs 1998-2002)                            335,725
Department of Public Works (FY 2001)                                197,074
Fire Department (FY 2001)                                           147,846
Human Resources (FYs 1998-2002)                                   5,401,924
Mayor’s Office (FYs 1998-2002)                                    3,902,975
Office of Citizen Complaints (FYs 1999-2002)                        334,231
Police Department (FY 2001)                                         143,822
        Total                                                   $12,525,921


City Attorney
The City Attorney’s office provides legal services by attorneys exclusively assigned
and stationed at the Airport and attorneys who only work on Airport projects as
                                                                                     6

needed. The Airport should only be charged for direct costs of providing legal service,
such as the salaries and benefits of the attorneys providing the service.

However, in FY 2001, the City Attorney’s office charged the Airport $2,867,356 for
legal services, of which $1,149,179 was for overhead costs. The Airport reimbursed
the City for these services at hourly rates ranging from $105 to $170, which included
overhead of $47 to $68 per hour for secretarial and administrative costs.

The City Attorney’s secretarial services are indirect as these costs are based on an
allocation of the average FY 2001 secretarial salary. The administrative costs are
overhead that the City Attorney’s office allocates to City departments that use its
services and include building rent, equipment purchases, mail services, and office
supplies. The secretarial and administrative costs to the Airport were for indirect
services already paid for by the Airport’s annual service payment to the City’s General
Fund.

We also found an additional $913,145 in unsupported costs the City Attorney charged
to the Airport that could not be verified as actual costs to the Airport. Under the
Agreement, the Airport is only obligated to pay the City for direct services as long as
the direct services were actual, verifiable, and reasonable. This adds up to $2,062,324
($1,149,179 + $913,145) in revenue diversion by the City Attorney’s office in
FY 2001.

Civil Service Commission
From FY 1998 through FY 2002, the Civil Service Commission charged the Airport
$335,725 for the costs of a labor negotiator, but the Commission did not assign a labor
negotiator exclusively to the Airport. For example, in FY 2001, the City billed the
Airport $76,484 for the costs (80 percent of salary and benefits) of the Commission’s
labor negotiator. Because the salary and benefits for the negotiator were not incurred
for direct services provided to the Airport, the payments are a prohibited under FAA’s
Final Policy.

Also, the labor negotiator provides services that affect other City departments’
personnel operations and those services, along with the entire Civil Service
Commission services, were allocated as indirect costs through the City’s cost
allocation plan. As such, the City was not in compliance with FAA’s revenue use
policy, which prohibits the use of airport revenue for direct or indirect payments not
calculated consistently for the airport and other comparable units of government. If
the labor negotiator’s cost to the Airport had been allocated through the City’s cost
allocation plan, the cost would have been for an indirect service paid for by the
Airport’s annual service payment to the City’s General Fund.
                                                                                        7

Department of Public Works
The City’s Department of Public Works (DPW) provides building repair, construction
management, engineering, and architectural services to the Airport. However, in
FY 2001, DPW charged the Airport $197,074 for overhead costs.

DPW has its own indirect cost allocation plan to allocate costs to City departments
using its services. Although DPW provided direct services to the Airport and properly
charged direct costs, it also allocated overhead to the Airport based on a rate applied to
the direct labor. The overhead costs are for indirect services already paid for by the
Airport’s annual service payment to the City’s General Fund.

Fire Department
In FY 2001, the Fire Department charged the Airport $147,846 for administrative and
training costs. This amount was an allocation of City-wide Fire Department costs,
based on the number of uniformed firefighters assigned to the Airport, not on the
direct costs for providing these services. The administrative and training costs are for
indirect services already paid for by the Airport’s annual service payment to the City’s
General Fund.

Human Resources
In FYs 1998 through 2002, the City’s Human Resources Department allocated to the
Airport $5.4 million of indirect costs. The Airport was allocated a portion of costs for
a City-wide computer program system, consultation services, salary of an information
systems assistant, a comprehensive City-wide administrative review, and drug testing.

The costs charged were not the actual costs of providing these services to the Airport
but were based on allocation formulas (a method used to distribute the cost of indirect
services) and, therefore, already paid for by the Airport’s annual service payment to
the City’s General Fund.

Mayor’s Office
The Mayor’s Office falls into the category of general cost of government, which is
inherently an indirect service. FAA’s Final Policy states that “…a portion of general
costs of government, including executive offices…may be allocated to the airport
indirectly under a cost allocation plan.” Although the Airport receives benefit from
services provided by the Mayor’s Office, it is an executive office that provides
City-wide services allocated through the City’s cost allocation plan. The effort to
account for actual time the Mayor’s Office spends on each City department would be
time consuming and not beneficial to the City.

In FYs 1998 through 2002, the Mayor’s Office charged the Airport $3.9 million of
indirect costs based on allocations of administrative costs and the office’s role in
                                                                                     8

expanding the international and global reach of the Airport. The costs are for indirect
services already paid for by the Airport’s annual service payment to the City’s General
Fund.

Office of Citizen Complaints
The Office of Citizen Complaints (OCC) investigates complaints against police
officers. The City Charter requires that one investigator be hired for every 150 sworn
police officers. In FYs 1999 through 2002, OCC charged $334,231 to the Airport for:

• The salary and benefits for one full-time investigator, but OCC did not assign an
  investigator exclusively to the Airport. Because the salary and benefits for one
  investigator were not incurred for services provided to the Airport, the payments
  are prohibited under FAA’s Final Policy.

• A percentage of all OCC non-personnel costs (such as building rent, mail services,
  and office supplies). They are indirect costs and, therefore, already paid for by the
  Airport’s annual service payment to the City’s General Fund.

• Direct billings for OCC investigations at the Airport in FYs 1999 through 2002.
  We found that OCC investigators maintained logs to track time for Airport-related
  work. These logs were then used to calculate the salary and benefits to bill the
  Airport. The practice of maintaining logs to track OCC investigators time for
  Airport-related work was discontinued in FY 2003.

   In our meeting with OCC, we determined that the Airport was the only department
   for which these logs were maintained. Although these charges are based on actual
   costs, they are prohibited under FAA’s Final Policy because OCC does not
   maintain logs and directly bill other City departments for its services. FAA’s Final
   Policy prohibits the use of airport revenue for direct or indirect payments not
   calculated consistently for the airport and other comparable units of government.

Police Department
All police officers assigned to the Airport are City employees, and the Airport
reimburses the City for their direct services, such as the salaries and benefits of the
officers providing the services. In FY 2001, the Airport was billed $81,366 for one
OCC investigator through the Airport Police Bureau, but the Police Department did
not assign an investigator exclusively to the Airport.

Because the salary and benefits for the investigator were not incurred for direct
services provided to the Airport, the payments are prohibited under FAA’s revenue use
policies. Also, the Airport was actually charged twice for an OCC investigator—once
by the Police Department and once by OCC.
                                                                                       9

We also found an additional $62,456 in unsupported costs for workers’ compensation
the Police Department charged to the Airport that could not be verified as actual costs
to the Airport. This adds up to $143,822 ($81,366 + $62,456) in revenue diversion by
the Police Department in FY 2001.

RECOMMENDATIONS
Actions need to be taken to collect those revenue diversions we have identified in this
report, to further identify revenue diversions from prior fiscal years not reviewed here,
and to prevent the City practices that led to these revenue diversions. Therefore, we
recommend that FAA’s Associate Administrator for Airports:

1. Determine if practices that led to the revenue diversions identified in this review
   have been corrected. If not, take enforcement steps under Title 14 Code of Federal
   Regulations Part 16, which may include a hearing, against the City for unlawful
   revenue diversions.

2. Determine the extent of revenue diversions for the eight City departments
   identified in this review and other City departments that FAA deems necessary
   during its follow-on review. Title 49 United States Code Section 47107(n)
   imposes a statute of limitations of 6 years for recovering illegal revenue diversions.
   Therefore, FAA’s follow-on review should cover all City charges to the Airport
   going back to the fiscal year that ended June 30, 1998.

3. Seek full recovery of the $12.5 million of revenue diversions identified in this
   report and other revenue diversions identified in FAA’s ongoing review, plus
   interest as required by the Airport Revenue Protection Act of 1996.

MANAGEMENT RESPONSE

On January 28, 2004, we met with staff from the FAA Office of the Associate
Administrator for Airports to discuss the results of our audit and provide them with a
draft copy of our report. FAA officials generally agreed that the City had diverted
revenues from the Airport but could not make a determination on the extent of revenue
diversions until the Agency received our report and collected additional information
from the City. FAA officials agreed to take action to ensure the Airport recovers any
amounts found to have been diverted to non-Airport use.

ACTION REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would appreciate
receiving your written comments within 30 calendar days. If you concur with the
finding and recommendations, please indicate the specific action taken or planned for
each recommendation and the target date for completion. If you do not concur, please
provide your rationale. You may provide alternative courses of action that you believe
                                                                                    10

would resolve the issues presented in this report. For the recommendation with dollar
amounts, we request you indicate your agreement or disagreement with the amount.

We appreciate the cooperation and assistance provided by you and your staff during
our review. If you have any questions or need further information, please contact me at
(202) 366-1992 or Robin K. Hunt, Deputy Assistant Inspector General for Hazardous
Materials, Security, and Special Programs, at (415) 744-3090.

                                          #
                                                                                 11



EXHIBIT. SCOPE AND METHODOLOGY

We conducted our review in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States. We designed the
review steps to provide reasonable assurance of detecting abuse or illegal acts and
included such tests as were considered necessary under the circumstances.

We conducted the review during the period August through December 2003. The
review was performed at the San Francisco International Airport, at various
San Francisco City and County offices, and at KPMG Certified Public
Accountants. Our review primarily covered the City’s fiscal year that ended
June 30, 2001, but was expanded to earlier and later periods as necessary.

We obtained a list of all payments the Airport made to the City for the fiscal years
that ended June 30, 2001, and June 30, 2002. We selected and reviewed charges
from the following City departments: City Attorney, Civil Service Commission,
Department of Public Works, Fire Department, Human Resources, Mayor’s
Office, Office of Citizen Complaints, and Police Department. We selected these
departments based on findings in KPMG’s single audit report, on the Airlines’
complaint letter to the Office of Inspector General, and through our review of the
City’s cost allocation plan.

We met with staff from each of the selected City departments to determine their
methodology for charging costs to the Airport and whether they were aware of the
Lease and Use/Settlement Agreement between the City and the Airlines. We also
met with City Controller staff to obtain information about the City’s cost
allocation plan. Additionally, we reviewed working papers from our 1992 audit to
obtain memoranda of understanding between the various City departments and the
Airport agreeing not to allocate indirect costs to the Airport.

Our review of expenditures in FYs 2001 and 2002 for these departments led us to
prior fiscal year expenditures that we also found to be revenue diversions. Title 49
United States Code Section 47107(n) imposes a statute of limitations of 6 years for
recovering illegal revenue diversions. Thus, to the extent possible, we determined
dollar amounts for revenue diversions back to the City’s fiscal year that ended
June 30, 1998. Due to time constraints, we were not able to obtain this
information for each City department we reviewed. Consequently, we have
recommended that FAA obtain this information.




Exhibit. Scope and Methodology
